                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: 1-11060030                                                                  Page 1 of 1



     We conducted an investigation of an NSF employee 1 who was alleged to have misused his
     government issued BlackBerry and desk phone to make excessive personal calls (local, long
     distance and international calls) which were paid for by NSF. It was also alleged that he had
     submitted false travel reimbursement claims for taxi fares.

     Our investigation determined that the allegations were substantiated in part, and the matter has
     been referred to the employee's supervisor for appropriate action.

     This case is closed.
